              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




    Audit Report


   Management Controls over
   Implementation of the Homeland
   Defense Equipment Reuse
   Program




OAS-M-08-03                       December 2007
                            Department of Energy
                                Washington,         DC 20585
                               December 1 1 , 2007


MEMORANDUM FOR THE MANAGER, OAK RIGE OFFICE
                        c;r,,ak&fi
FROM:                    George W. Collard
                         Assistant Inspector General
                           for NNSA and Energy Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management Controls
                         over Implementation of the Homeland Defense Equipment
                         Reuse Program"



In June 2002, the Department of Energy's (Department) Oak Ridge Office entered into an
Interagency Agreement with the U.S. Department of Justice to provide excess
radiological detection equipment and other equipment to designated state and local first
responder agencies under the Homeland Defense Equipment Reuse (HDER) Program.
On March 1, 2003, the Department of Justice transferred its responsibility for
administering the HDER Program to the Department of Homeland Security.
Under the Agreement, Oak Ridge located, received, evaluated, and rehabilitated excess
Federal equipment for reuse by first responder agencies. Essential first responder
equipment included items such as radiation detection meters and face respirators.

Oak Ridge used a contractor to carryout its responsibilities under the Agreement. As of
December 2006, equipment with an acquisition value of more than $1.5 million was
stored at the HDER processing facility.

In January 2007, Oak Ridge temporarily suspended activities because of concerns about
the effectiveness of property controls. Based on concerns raised to us by Oak Ridge
management, we conducted this audit to determine whether controls were in place to
ensure that all equipment transferred to the HDER Program was made available to
approved first responders.

RESULTS OF AUDIT

While we found that Oak Ridge provided equipment to first responders in a timely
manner, key property management controls were not in place to ensure that all equipment
transferred to the HDER Program was made available to first responders. Specifically:

       All items approved for transfer to the HDER Program could not be located; and,

       Other equipment received by the HDER contractor was provided to first
       responders without prior Homeland Security approval.



                              a9   Printed with soy ~ n kon recycled paper
We were precluded from fully testing HDER Program inventories because records of
transferred property were not complete. However, we identified instances where
transferred property could not be located. For example, Oak Ridge and its HDER
contractor could not locate 11 of 30 items approved for transfer to HDER by one
Department site. Equipment that was unaccounted for included heat stress monitors and
a fuel tank and pump.

Key property management controls were not in place because Oak Ridge had not
required its contractor to provide a complete accounting for equipment transferred by
Federal sites to the HDER Program. Further, the contractor did not follow procedures
established for the HDER Program. Specifically, the contractor allowed local responders
to visit its processing facility and take equipment before it was entered into the
Responder Knowledge Base, thereby preventing Homeland Security from reviewing and
approving the request for the distribution of the equipment.

Without critical property management controls, the Department and Homeland Security
cannot be assured that equipment vital to first responders is being made available as
needed. In April 2007, Oak Ridge resumed HDER Program activities. Given the
importance of the HDER equipment to first responders and Oak Ridge's decision to
resume activities, we made recommendations to improve property management controls.

MANAGEMENT REACTION

Management agreed with our report and corresponding recommendations and noted the
corrective actions that have been or will be taken to address weaknesses noted in the
report. Management's proposed actions are responsive to our recommendations and are
included in Appendix 2 of the report.

Attachment

cc:   Chief of Staff
      Deputy Director for Field Operations, SC
      Manager, Oak Ridge Office
      Team Leader, Audit Liaison Team, CF-1.2
      Audit Liaison, Oak Ridge Office, SC-OR
REPORT ON MANAGEMENT CONTROLS OVER IMPLEMENTATION
OF THE HOMELAND DEFENSE EQUIPMENT RESUSE PROGRAM


TABLE OF
CONTENTS


  Equipment Transfers to First Responders

  Details of Finding                                1

  Recommendations                                   2

  Comments                                          3


  Appendices

  1. Objective, Scope, and Methodology              4

  2. Management Comments                            6
EQUIPMENT TRANSFERS TO FIRST RESPONDERS

Equipment       During our review, we identified several instances where
Availability    equipment approved for transfer to the Homeland Defense
                Equipment Reuse (HDER) Program could not be located or was
                distributed to first responders without prior approval of the
                Department of Homeland Security (Homeland Security).

                                      Transferred Equipment

                We were unable to locate all equipment approved for transfer to
                the HDER Program at the contractor's HDER processing facility.
                Specifically, the Oak Ridge Office (Oak Ridge) and its HDER
                contractor were able to tentatively identify only 19 of the 30 items
                that had been approved for transfer by the Department of Energy's
                (Department) Ashtabula closure site. Based on discussions with
                Ashtabula closure site personnel, the items were likely shipped to
                the contractor's processing facility on multiple shipments over a
                four month period. However, controls did not provide sufficient
                evidence to determine whether the equipment actually arrived at
                the processing facility. Examples of the 11 items not found
                included equipment beneficial to first responders such as two heat
                stress monitors and a fuel tank and pump. In another instance,
                while observing the offloading of a HDER shipment to the
                contractor processing facility, we were only able to locate 9 of the
                19 boxes of Personal Protective Equipment that were listed on the
                transfer document from the Department's Y-12 National Security
                Complex.
                                       Distributed Equipment

                Furthermore, the HDER contractor provided equipment to first
                responders without prior Homeland Security approval.
                Specifically, we identified two instances where the contractor
                allowed first responders to physically visit its HDER processing
                facility and take equipment without approval of Homeland
                Security. The contractor had entered some of the selected
                equipment into the Department's Asset Reutilization Inventory
                System (ARIS) while other items had not been entered. For those
                items that had been accounted for in ARIS, HDER contractor
                personnel improperly recorded them in the system as recycled,
                indicating that the items were unfit for HDER Program use and
                had been disposed of, rather than indicating that the equipment had
                been provided to the first responders. The ARIS inventory system
                was used to update, on a quarterly basis, Homeland Security's
                Responder Knowledge Base through which it approved first
                responder's equipment requests.




Page 1                                                          Details of Finding
Property Controls   Key property controls were not in place to ensure that equipment
                    was controlled and made available to first responders. For
                    example, Oak Ridge did not require a complete accounting of all
                    equipment transferred to and received at the HDER processing
                    facility, and did not require the HDER contractor to reconcile
                    receipts with site transfer documents. Departmental sites were
                    allowed to send equipment to HDER through transfer documents
                    that contained generalized, rather than specific, descriptions of the
                    items transferred to the program. Examples of generalized
                    descriptions on the approved transfer documents include
                    "miscellaneous air and water monitoring equipment,"
                    "miscellaneous radiological supplies" and "personal protection
                    clothing, various." In the absence of a complete listing of
                    equipment and with no requirement in place to reconcile inventory
                    received to the transfer documents, it is difficult for Oak Ridge to
                    determine which items have actually been transferred to the HDER
                    processing facility and ultimately made available to first
                    responders.

                    Also, the HDER contractor did not follow established procedures
                    for entering data in inventory systems and in issuing equipment to
                    first responders. Under HDER Program procedures, first
                    responders must submit justifications to Homeland Security for
                    specific items. Homeland Security approves distribution of the
                    equipment based on the needs identified by the first responders.
                    Despite these procedures, the contractor allowed two local first
                    responders to visit the processing facility and take equipment
                    without approval from Homeland Security.

Impact on First     Without proper controls, the Department cannot be assured that
Responders          equipment is being provided to first responders in order to enhance
                    their domestic preparedness capabilities. During the course of the
                    HDER Program, Oak Ridge provided equipment to fire
                    departments, emergency management agencies, and law
                    enforcement agencies that otherwise might not have the ability to
                    procure the items, some of which were new and still in the original
                    boxes. This equipment is vital to the mission of first responders.


RECOMMENDATIONS     We recommend that the Manager, Oak Ridge Office:

                         1. Establish controls to ensure that the description and
                            quantity of items transferred to the HDER Program is
                            clearly identified;

                         2. Require the HDER contractor to reconcile deliveries and
                            receipts;


Page 2                                                             Recommendations
                        3. Ensure that all useful items transferred to HDER are
                           accurately and appropriately reflected in ARIS; and,

                        4. Enforce HDER procedures on the contractor which
                           require Department of Homeland Security approval of
                           equipment distributions.


Management and     Management immediately took action to address the deficiencies
Auditor Comments   noted in the report. These changes include instituting a more
                   rigorous equipment tracking system; drafting new procedures for
                   the execution of the program; and, improving oversight of
                   contractor activities. Additionally, management has developed a
                   corrective action plan to address the recommendations contained in
                   the report. These actions include revisions to the HDER Operating
                   Manual to reflect the implementation of additional controls,
                   increased oversight by Departmental staff, and updating the
                   existing contractor's Statement of Work.

                   We consider Management's comments and actions to be responsive
                   to the weaknesses and recommendations identified in the report.
                   Management's comments are included in Appendix 2 of the report.




Page 3                                         Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Oak
              Ridge Office has controls in place to ensure that all equipment
              transferred to the Homeland Defense Equipment Reuse (HDER)
              Program was made available to approved first responders.

SCOPE         We conducted the audit from March to October 2007 at the Oak
              Ridge Office in Oak Ridge, Tennessee. The scope of the audit
              covered equipment transfers to the HDER Program since 2002.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Obtained and reviewed laws, regulations, policies, and
                      procedures relevant to the HDER Program;

                  •   Reviewed related prior audit reports and reviews;

                  •   Evaluated Oak Ridge Office internal controls over the
                      transfer of excess property;

                  •   Reviewed files and documentation related to HDER
                      property transfers;

                  •   Analyzed transferred property inventory listings; and,

                  •   Interviewed key personnel at the Oak Ridge Office,
                      Ashtabula closure site, and Oak Ridge's HDER contractor.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our finding and
              conclusions based on our audit objective. The audit included tests
              of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. We were
              precluded from fully testing HDER Program inventories because
              records of transferred property were not complete. However, we
              used alternative procedures, including observation of property
              transfers, to support our finding and conclusion. We believe that
              the evidence obtained provides a reasonable basis for our finding
              and conclusions based on our audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit.
              Also, we evaluated the Department of Energy's implementation of
              the Government Performance and Results Act of 1993 as it related
              to the audit objective.




Page 4                                    Objective, Scope, and Methodology
Appendix 1

             Our review did not identify any performance measures directly
             relating to the HDER Program. Finally, since we did not rely upon
             automated data processing information to accomplish our audit
             objective, we did not conduct an assessment of the reliability of
             computer processed data.




Page 5                                 Objective, Scope, and Methodology
Appendix 2




Page 6       Management Comments
Appendix 2 (continued)




Page 7                   Management Comments
Appendix 2 (continued)




Page 8                   Management Comments
                                                                    IG Report No. OAS-M-08-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
